Nos. 20-548, 20-544

In the
Supreme Court of the United States

STEVEN T. MNUCHIN, SECRETARY OF TREASURY,
Petitioner,

v.
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, et al.,
Respondents.

ALASKA NATIVE VILLAGE CORPORATION
ASSOCIATION, INC., et al.,
Petitioners,

v.

CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, et al.,
Respondents.

CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.1(h), I certify
that the Motion for Leave to File Brief of Amici Members of
Congress contains 711 words; and the Brief of Amici Curiae
U.S. Senators Lisa Murkowski and Dan Sullivan, and U.S.
Congressman Don Young in Support of Petitioners contains
5549 words, excluding the parts of the brief that are
exempted by Supreme Court Rule 33.1(d).
2

I declare under penalty of perjury that the foregoing
is true and correct.

16%
Executed on November , 2020.

Are Vi

ristine V. Williams
Outlook Law, LLC
1016 West 6th Avenue, Suite 306
Anchorage, Alaska 99501

(907) 258-2200
christinewilliams@outlooklaw.com
Counsel of Record

    
